2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-768
GERARDO SERRANO,
Petitioner,
v.

U.S. CUSTOMS AND BORDER PROTECTION, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the REPLY BRIEF FOR THE
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.l(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2996 words, excluding the parts that are exempted by Supreme
Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 30th day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL IOTARY-State of NebriSka
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Affiant

40836

